Date       : 	October 18, 2012
Reply to
Attn of    : 	Office of Inspector General (OIG)

Subject    : 	Management Letter No. 13-02, Status of the Upgrade to the Electronic Records Archives
              Executive Office of the President System

To         : David S. Ferriero, Archivist of the United States


This Management Letter is to inform you of our concerns with the effort currently underway to
upgrade the Electronic Records Archives (ERA) Executive Office of the President (EOP)
System. Specifically, deliverables due in September 2012 (e.g., Project Management Plan,
System Design, Software Design) have not been completed, and there appears to be a disconnect
between NARA and the contractor in terms of the scope of work. The contractor is expected to
submit a revised price quote by October 22, 2012 based on a re-defined scope of work. As a
result, the cost to upgrade the EOP System may increase significantly, and implementation may
be delayed. If delayed, NARA may not be able to rely on the upgraded system to comply with
the Presidential Records Act, should a change in administration take place in 2013.

The ERA is a major information system that is intended to preserve and provide access to
massive volumes of all types and formats of electronic records, independent of their original
hardware or software, including Presidential records. The current EOP System was deployed in
December 2008 and is NARA’s private, internal archival management system to ingest, store,
and manage electronic Presidential records.

As part of the OIG’s on-going effort to review the ERA Program, we asked NARA officials what
actions, if any, were being taken to plan for the possible receipt of the current administration’s
electronic records should a change in administration take place in 2013. We were told a firm-
fixed-price contract was issued to ViON Corporation on August 16, 2012 for around $3.6 million
to provide planning, architectural design, engineering, integration, testing, acceptance and
security authorization upgrades to the EOP System. According to the Statement of Objectives in
the contract, the EOP System requires upgrades to storage capacity, hardware, and software to be
ready in the event that the current administration is one term in duration, necessitating a sizeable
transfer of electronic records in January 2013 under the Presidential Records Act.
The Presidential Records Act gives the Archivist of the United States responsibility for the
custody, control, and preservation of Presidential records upon the conclusion of a President’s
term of office. The Act states the Archivist has an affirmative duty to make such records
available to the public as rapidly and completely as possible consistent with the provisions of the
Act. NARA will immediately need to be able to respond to time-sensitive and often high­
visibility special access requests for these records. Such special access requests come from
former and incumbent Presidents, the courts, and the Congress.

According to the contract files, in order to comply with NARA's legislative mandate to
accommodate the records of the Executive Office of the President, additional storage with
enhanced search capabilities is required. To meet the statutory mandate, it is necessary for
NARA to purchase additional storage capacity with enhanced search capabilities compatible
with the system's current technical solution (i.e., Hitachi Content Platform).

A NARA official stated if the upgraded EOP System is not implemented in time for a change in
administration, should the current Presidential administration be one term in duration, the
contingency plan is to prioritize data for ingest into the current EOP System. However, a NARA
official advised the OIG that the cu.rrent EOP System has approximately -               of free



-·
space, whereas the current administration's electronic records are estimated to be about .


We will continue to monitor NARA's efforts to upgrade the EOP System and expect to issue an
Advisory Report in the next few weeks. If you have any questions concerning the information
presented in this Management Letter, please do not hesitate to contact me at (301) 837-3000.




James Springs
Acting Inspector General




cc: 	 I (M. Wash)
      ISE (S. Stovall)




                                                 2

